U.S. Department of Agriculture
 Office of Inspector General
      Southeast Region
         Audit Report




    Food and Nutrition Service
   Florida Food Stamp Program
          Tallahassee, FL




               Report No.
               27004-3-AT
               NOVEMBER 2001
                             EXECUTIVE SUMMARY
                         FOOD AND NUTRITION SERVICE
                        FLORIDA FOOD STAMP PROGRAM
                              TALLAHASSEE, FL
                         AUDIT REPORT NO. 27004-3-AT


                                      This report presents the results of our
      RESULTS IN BRIEF                self-initiated audit of the Florida Department of
                                      Children and Families, the State agency (SA),
                                      that administers the Food Stamp Program
          (FSP). The audit objectives were to evaluate the SA’s corrective action
          planning for reducing payment error rates (PER) and its management of
          food stamp claim activities. In fiscal year (FY) 1999, the SA’s PER was
          9.43 percent equating to $76.7 million of improperly issued food stamp (FS)
          benefits. States are required to develop corrective action plans (CAP) to
          substantially reduce the PER.

            Although the average FSP caseload per eligibility worker (EW) has declined
            39 percent since FY 1996, the reduced caseload and the SA’s corrective
            action initiatives have not resulted in a significant reduction in the PER. The
            following table shows the PER as compared to the decrease in average
            caseloads and FSP participation.

                                                       FSP Cases
                                                              Change                      FSP Cases
                                                                                      Average   Percent
              SFY            PER        Total Cases        Cases         Percent      Per EW    Change
              1996             9.70         651,150             N/A           N/A          187       N/A
              1997            10.26         538,685       (112,465)         (17.3)         162    (13.4)
              1998           12.941         453,955        (84,730)         (15.7)         131    (19.1)
              1999            9.432         430,904        (23,051)          (5.1)         125      (4.6)
              2000            9.242         423,893         (7,011)          (1.6)         114      (8.8)
             Change                                       (227,257)         (34.9)         (73)   (39.0)
             1
                 The SA attributed the increase to implementation of Welfare Reform requirements.
             2
                 The SA received a waiver that exempted recipients from reporting changes in earned income in
                 certain cases, which reduced the PER.



            The SA’s CAP's did not contain mandatory elements and components and
            the plans as implemented had no long-term effect on lowering PER. Our
            review of the CAP for FY's 1997 through 2000 showed that they were a
            general skeletal outline format that did not provide mandatory details of how
            and when a deficiency was first identified, specific actions required to




USDA/OIG-A/27004-3-At                                                                             Page i
           correct a deficiency, progress and expected dates to correct the deficiency,
           and an assessment as to whether the corrective actions eliminated the
           deficiency. The CAP's initiatives were generally “to continue” the same
           actions that were rolled over from year to year with the expected completion
           dates listed as “ongoing”. The FY 2000 plan showed that (1) 30 of the
           37 actions were a continuation from prior years’ plans and (2) 33 of the
           37 actions had completion dates listed as “ongoing”. The CAP also
           included initiatives that were either basic program requirements, such as
           compile and disseminate quality control data analysis to districts, or that
           were not directly error rate reduction related such as pay compensation
           levels for non-EW's.

           The CAP did not address specific actions directed at FS cases with high
           error prone characteristics and did not target for intensified certification
           actions those eligibility factors, household (HH) characteristics, and
           certification elements with high error prone ratings. For example, the CAP
           did not describe any deficiencies or corrective actions related to shelter
           and utility expense payment errors even though these expenses have
           been the second leading cause of payment errors. The FY 1999 PER
           applicable to shelter and utility expenses was 1.19 percent equating to
           $9.7 million.

           The SA had not taken sufficient action to improve its claim management
           activities. In January 1994, the Office of Inspector General reported that the
           SA's did not (1) timely process claim referrals resulting in a 7-year backlog
           (referrals awaiting review) and (2) require recoupment of some established
           claims from participating HH’s. In January 1997, Food and Nutrition
           Services (FNS) issued the SA an informal warning of possible funds
           suspension due to continuing problems with claims management. FNS
           placed the suspension in abeyance when the SA provided a
           February 28, 1997, plan of action to improve claims management.
           However, FNS requested the State to take further actions which were to
           include (1) additional staff for the claims function (staffing had been reduced
           35 percent in spite of the backlog which has continued for a number of
           years) and (2) plans to bring the backlog current by the end of
           FY 1998. The condition had not been corrected. As of July 2000, about
           128,700 FSP claims referrals were backlogged and, based on resources
           and ongoing workloads at that time, over 13-years would be needed to work
           the backlog which we estimate will yield receivables of about $14.7 million.
           Since 1994, FNS has allowed the following additional actions:

           •    In May 1997, the SA was allowed to purge 185,451 FSP referrals
                that were over 3 years old, and

           •     In August 1998, the SA received a waiver to increase the threshold
                 for making claim referrals from $100 to $250.




USDA/OIG-A/27004-3-At                                                           Page ii
             These actions were designed to eliminate the claims referral backlog, but
             they did not resolve the problem. Raising the over-issuance referral
             threshold and purging FSP claim referrals only slowed the rate that the
             backlog increased at the expense of not recovering over issued benefits.
             Since the prior audit, the SA has not provided sufficient staff to timely
             process referrals. In fact, since our 1994 audit report, the claims staff was
             reduced from 87 to 61 workers (as of July 2000) a 30 percent decrease.
             The staffing decrease was incongruous with the continuing large backlog
             of claim referrals and the SA’s past actions to increase the recovery
             thresholds and purge referrals.

             In addition, the SA did not always code claims for allotment reduction.
             This resulted in 1,291 claims valued at $678,532 that was not subject to
             recoupment during our test period. Also, the SA understated its claims
             receivable balance reported to FNS by $490,340.

                                       We made a series of recommendations
  KEY RECOMMENDATIONS                  regarding the SA’s corrective action planning
                                       and     claims    management.            Primary
                                       recommendations were for FNS to require the
         SA to (1) include in CAP's all of the mandatory components with specific
         corrective actions designed to target payment errors caused by wages and
         salaries, shelter expenses, unearned incomes, and errors caused by EW's,
         (2) assign sufficient resources to work claim referrals timely, (3) ensure that
         all claims are entered into the automated system for collection, and
         (4) implement controls to insure accurate reporting of claim receivables.

             We also recommended that FNS formally warn the SA's that suspension of
             administrative funds will begin if it fails (1) to develop and implement CAP's
             in conformance with requirements and (2) provide the necessary resources
             to timely process claim referrals and eliminate the backlog of referrals.

                                      In its October 26, 2001, response (see exhibit
     AGENCY RESPONSE                  D) to the draft report, FNS generally agreed
                                      with the recommendations and provided plans
                                      for implementation. In its November 5, 2001,
         response to the draft report (see exhibit E), the SA stated that action either
         had been taken or was in process to comply with five of the reports nine
         recommendations.        The State disagreed with the other four
         recommendations that dealt with its claims management activities.

             Details of the FNS and SA responses to the recommendations and our
             position are included at the end of the respective findings.




USDA/OIG-A/27004-3-At                                                            Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i
   RESULTS IN BRIEF..................................................................................................... i
   KEY RECOMMENDATIONS ...................................................................................... iii
   AGENCY RESPONSE ............................................................................................... iii
INTRODUCTION............................................................................................................. 1
   BACKGROUND .......................................................................................................... 1
   OBJECTIVES .............................................................................................................. 5
   SCOPE ........................................................................................................................ 5
   METHODOLOGY ........................................................................................................ 5
FINDINGS AND RECOMMENDATIONS ........................................................................ 7
   CHAPTER 1 ................................................................................................................ 7
   CAP'S DID NOT MEET REGULATORY REQUIREMENTS ....................................... 7
   FINDING NO 1............................................................................................................. 7
   RECOMMENDATION NO.1 ...................................................................................... 12
   CHAPTER 2 .............................................................................................................. 13
   CAP'S DID NOT TARGET ERROR PRONE ELEMENTS ........................................ 13
   FINDING NO. 2.......................................................................................................... 14
   CAP DID NOT TARGET SIGNIFICANT PAYMENT ERRORS ................................. 14
   RECOMMENDATION NO. 2 ..................................................................................... 18
   RECOMMENDATION NO. 3 ..................................................................................... 19
   FINDING NO. 3.......................................................................................................... 19
   CAP DID NOT TARGET EW PAYMENT ERRORS .................................................. 19
   RECOMMENDATION NO. 4 ..................................................................................... 22
   CHAPTER 3 .............................................................................................................. 23
   FOOD STAMP CLAIMS MANAGEMENT NEEDS IMPROVEMENT ........................ 23
   FINDING NO. 4.......................................................................................................... 24
   BACKLOGGED CLAIM REFERRALS...................................................................... 24
   RECOMMENDATION NO. 5 ..................................................................................... 28
   FINDING NO. 5.......................................................................................................... 30
   DELINQUENT CLAIMS NOT SUBJECT TO ALLOTMENT REDUCTIONS............. 30




USDA/OIG-A/27004-3-At                                                                                               Page iv
   RECOMMENDATION NO. 6 ..................................................................................... 31
   FINDING NO. 6.......................................................................................................... 32
   INADEQUATE FSP CLAIM ACCOUNTING SYSTEM.............................................. 32
   RECOMMENDATION NO. 7 ..................................................................................... 33
   RECOMMENDATION NO. 8 ..................................................................................... 34
   RECOMMENDATION NO. 9 ..................................................................................... 34
   EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................. 36
   EXHIBIT B – STATE OF FLORIDA FY 2000 CAP ................................................... 37
   EXHIBIT C – STATISTICAL SAMPLING PLAN ....................................................... 39
   EXHIBIT D – FNS RESPONSE TO THE DRAFT REPORT...................................... 41
   EXHIBIT E – SA RESPONSE TO THE DRAFT REPORT ........................................ 46
ABBREVIATIONS ........................................................................................................ 61




USDA/OIG-A/27004-3-At                                                                                           Page v
                            INTRODUCTION

                                     The Food Stamp Program (FSP) is designed
        BACKGROUND                   to promote the general welfare and to
                                     safeguard the health and well being of the
                                     nation’s population by raising the nutrition
                                     levels of low-income families. The program
          supplements the food budgets of these families. The amount of benefits
          received by each family depends on its size and income.

           Program Administration

           In the U.S. Department of Agriculture, the Food and Nutrition Service (FNS)
           administers the program through agreements with State Agencies (SA).
           The Florida Department of Children and Families, which is divided into
           15 districts, is responsible for administering the program in the State.
           Program benefits are delivered to low-income families through local county
           service centers. The county service center staffs are responsible for
           determining the eligibility and amounts of benefits issued to participating
           households (HH).

           Program Size and Cost

           In fiscal year (FY) 2000, the SA issued over $772 million in food stamp (FS)
           benefits to an average monthly caseload of about 416,000 HH’s. A strong
           economy with increased job opportunities and low unemployment has
           resulted in material decreases in the FSP caseload. Since FY 1996, this
           equated to a 29 percent decrease in monthly caseloads and 40 percent
           decrease in FS issuances (see table 1).




USDA/OIG-A/27004-3-At                                                        Page 1
                                         CASELOAD DECLINE

                   1500

                   1000

                     500

                          0
                              1996         1997       1998     1999     2000

                          Issuance ($millions)         Caseload (thousands)

           Table 1
            Issuance
            (millions)        $1,295.5     $1,061.2   $845.3   $813.0   $772.1
            Caseload
            (thousands)            590          514     432      427      416
            1
             The SA’s preliminary PER for FY 2000


           Program Controls

           The Food Stamp Act requires that SA’s administer the program in
           accordance with the Act, regulations, and the SA’s approved plan of
           operation. The SA is required to establish a “continuing performance
           reporting system” to monitor the program. Components of the reporting
           system include quality control (QC) reviews, management evaluations
           (ME), corrective action plans (CAP) for reducing QC error rates, SA
           monitoring of CAP’s implementation, and reports to FNS on program
           performance.

           The QC system is a major control for FNS to ensure the accuracy of the
           certifications performed by State employees and to control program waste.
           The QC reviews measure the accuracy of eligibility and benefit level
           determinations by reviewing a statistical sample of HH case files. SA’s
           investigate the sampled cases to determine if the HH's are eligible to
           receive FS and if the benefit levels are accurate. Based on the findings, a
           preliminary payment error rate (PER) is computed. FNS reviewers examine
           a sub-sample of the SA’s sample to ensure the accuracy of the findings.
           Based on the findings of the FNS reviewers, each State’s preliminary PER
           is adjusted through statistical regression analysis techniques to arrive at the
           official validated PER.




USDA/OIG-A/27004-3-At                                                            Page 2
           The following table shows Florida’s PER since FY 1995.


                                          PAYMENT ERROR RATE

                                 15

                                 10                                  4.47
                                        2.6                 2.45
                                                   2.27                                2.65
                  PERCENT                                                     3.64
                                   5   8.47                          8.47
                                                   7.43     7.81                       6.59
                                                                              5.79
                                   0
                                       1995        1996     1997     1998     1999     2000

                                   OVERISSUANCE              UNDERISSUANCE


           Table 2
            PERCENT              11.07               9.70    10.26    12.94     9.43     9.24
            NATIONAL
            AVERAGE               9.72               9.22     9.88    10.69     9.88     N/A
            ISSUANCE (MILLIONS)
            OVER                $110.7              $96.3    $82.9    $71.6    $47.1    $50.9
            UNDER                 34.0               29.4     26.0     37.8     29.6    $20.4
            TOTAL                      $144.7      $125.7   $108.9   $109.4    $76.7    $71.3
            1
            The SA’s preliminary PER for FY 2000


           Each year the SA prepares a CAP to address weaknesses in program
           operations that were identified by the QC analysis and ME reviews. The
           purpose of the CAP is to provide specific corrective actions that are
           designed to significantly reduce or eliminate the weaknesses found. The
           plan is to include time specific dates when the actions are to be completed,
           and a process to evaluate the effectiveness of the corrective actions, or if a
           new or modified approach is needed to address the deficiencies. The
           FY 2000 CAP was developed based on the FY 1999 QC and ME results.

           The SA’s past CAP’s have not resulted in a significant reduction of the PER.
           In 1998, welfare reform provided FNS the authority to grant waivers to
           program regulations to streamline the FSP benefit process. FNS granted
           these waivers on a State-by-State basis upon evaluation of a SA’s request.
           The Florida SA requested a temporary waiver from FNS that eliminated the
           requirement that HH’s with earned income, who were certified for 3 months
           or less, report changes in their income of $25 or more. The waiver did not
           exempt reporting changes in (1) employers, (2) hourly rate, (3) employment
           status, or (4) unearned income over $25. FNS granted the request effective




USDA/OIG-A/27004-3-At                                                                         Page 3
                   October 1, 1998. The PER decreased from 12.94 percent in FY 1998 to
                   9.43 percent for FY 1999.         Of the 3.51 percentage point decline
                   (12.94 – 9.43), wages/salaries accounted for 2.64 percentage points. The
                   waiver was a material factor in the PER reduction due to the fact that what
                   would have been classified as an error in FY 1998 was no longer
                   considered an error. The waiver was extended to FY 2000.

                   Effective January 20, 2001, new rules eliminated most of the interim
                   reporting requirements for HH’s with earned income1. Under the new rules,
                   HH’s with earned income that are assigned a certification period of
                   6 months or less are no longer required to report changes in (1) income
                   unless the change exceeds 130 percent of the monthly poverty guidelines
                   for their HH size, commonly referred to as gross income limit
                   (e.g. $1,848 gross income for a 4-member HH), (2) HH composition,
                   (3) residence and shelter costs, (4) vehicles, (5) cash and securities over
                   $2,000, and (6) child support payments. These rules were designed to help
                   the working poor by streamlining the certification process, reducing visits to
                   certification offices, and reducing the burdensome reporting requirements.
                   The new rule should materially lower error rates. However, the new rule will
                   not reduce the amount of benefits issued and may increase them due to
                   HH’s not having to report changes that otherwise would have reduced their
                   benefits. Had these rules been in effect for FY 1999, we estimate that the
                   PER would have been 7.42 percent, equating to about $60.3 million of
                   improperly issued benefits.

                   Program Operating System

                   In FY 1992, the SA implemented a unified computer system called Florida
                   On-Line Recipient Integrated Data Access (FLORIDA) to compute and
                   issue entitlement benefits. This statewide system combines information
                   and processing functions for Temporary Cash Assistance (TCA), Medicaid,
                   FS, Refugee Assistance, and Child Support Enforcement (CSE) programs
                   into one system. The system allows an applicant for benefits to complete
                   one application package to determine eligibility for these programs at the
                   same time. One generic caseworker processes the client’s application for
                   public assistance. The U.S. Department of Health and Human Services
                   administers the nonfood stamp programs through agreements with the SA.

                   The FLORIDA system is functionally organized into two distinct parts:
                   Public Assistance, which consists of TCA, FS, Medicaid, and Refugee
                   Assistance programs; and the CSE Program.




1   Code of Federal Regulations (CFR) 273.12(a) dated January 20, 2001




USDA/OIG-A/27004-3-At                                                                  Page 4
                   The SA is required to collect claims against HH’s for over issued benefits.
                   FSP regulations2 require that SA’s enforce collections against participants,
                   who do not voluntarily pay their FSP debts that resulted from either
                   intentional or inadvertent receipt of benefits.

                                              The audit was conducted as part of the Office
                OBJECTIVES                    of Inspector General’s (OIG) annual plan and
                                              assessed the operations of the FSP in Florida.
                                              Our objectives were to evaluate the SA’s
                 corrective action planning for reducing PER's, and its management of FSP
                 claims activity.

                                                The audit was performed in accordance with
                    SCOPE                       the Government Auditing Standards and
                                                primarily covered FY 1999 and 2000 FSP
                                                operations. In FY 1999, the SA issued over
                   $813 million in FS benefits to an average caseload of about 426,600 HH's.
                   About $76.7 million (9.43 percent) of the $813 million was issued in error.
                   The SA’s FY 2000 CAP was developed based on the FY 1999 QC results.
                   As of September 30, 2000, the SA reported 205,699 FSP claims valued at
                   $51.1million as account receivables.

                   Audit work was conducted primarily at the Florida SA in Tallahassee,
                   Florida, and the FNS regional office in Atlanta, Georgia. Audit work was
                   performed from April 2000 through February 2001.

                                                To accomplish the audit objectives,          our
             METHODOLOGY                        examination consisted of the following:


                   •       Review of the Food Stamp Act of 1997, as amended, and Federal
                           Regulations Title 7, CFR, parts 271 through 285.

                   •       Interviews with FNS officials and review of program policies,
                           procedures, and pertinent correspondence at the FNS regional office.

                   •       Interviews with SA officials, and review of SA policies, procedures,
                           program statistics and management reports, and other pertinent
                           correspondence.

                   •       Interviews with and analysis of work performed by the Florida Auditor
                           General’s (AG) staff. During the course of our audit, the Florida AG’s
                           issued a report on FSP claims activities.


2   7 CFR 273.18, dated January 1, 2000.




    USDA/OIG-A/27004-3-At                                                               Page 5
          •    Analysis of FNS and SA ME and other review reports, QC findings,
               and assessment of CAP’s for reducing the QC error rate.

          •     Statistical tests of claims and collection activities. Details of our
                statistical sampling plan and projection results are shown in
                exhibit C.

          •     Evaluation of the SA's accounting for claim activities and reporting to
                FNS.




USDA/OIG-A/27004-3-At                                                         Page 6
                    FINDINGS AND RECOMMENDATIONS


    CHAPTER 1                                CAP'S DID NOT MEET REGULATORY
                                                      REQUIREMENTS

                                               Even though the FSP caseload per eligibility
               FINDING NO 1                    worker (EW) has declined 39 percent since
                                               FY 1996, the reduced caseload and the SA’s
                                               corrective action initiatives have not resulted
                 in a significant reduction of the PER. The SA’s CAP’s did not contain
                 mandatory elements, and components, and the plans as implemented had
                 no long-term effect on lowering PER's. The CAP’s for FY 1997 through
                 FY 20003 did not provide details of how and when a deficiency was first
                 identified, specific actions required to correct a deficiency, progress and
                 expected dates to correct the deficiency, and an assessment as to
                 whether the corrective actions eliminated the deficiency. The CAP
                 initiatives were generally rolled over from year to year and listed as
                 “on-going.” The CAP’s also included initiatives that were either basic
                 program requirements, such as “compile and disseminate QC data
                 analysis to districts” or that were not directly error rate reduction related,
                 such as pay compensation levels for non-EW’s.

                   The following table shows the PER as compared to the decrease in
                   workers’ caseloads and FSP participation.

                    Table 3
                                                                     FSP Cases
                                                                             Change                         FSP Cases
                                                                                                    Average       Percent
                        SFY               PER         Total Cases        Cases         Percent      Per EW        Change
                     1996                    9.70         651,150            N/A            N/A          187           N/A
                     1997                   10.26         538,685       (112,465)        (17.3)          162         (13.4)
                     1998                  12.941         453,955        (84,730)        (15.7)          131         (19.1)
                     1999                    9.43         430,904        (23,051)          (5.1)         125          (4.6)
                     2000                    9.24         423,893         (7,011)          (1.6)         114          (8.8)
                     Change                                             (227,257)        (34.9)          (73)        (39.0)
                     1
                         The SA attributed the increase to implementation of Welfare Reform requirements.


                   At the August 20, 2001, exit conference; SA officials stated that evaluation
                   of worker caseloads must include all program cases, not just FSP cases.

3
    The FY 1998 CAP was not on file at either the SA or FNS.




    USDA/OIG-A/27004-3-At                                                                                          Page 7
                    The generic EW’s are responsible for several programs including TCA and
                    Medicaid in addition to the FSP. Since 1996, the overall caseload for all
                    programs had increased from an average of 228 cases to 263 cases per
                    worker (see table 4).

                    Table 4
                                                       September                     Change
                                                1996             2000         Cases       Percentage
                     FSP                          643,808           430,832    (212,976)      (33.1)
                     TCA                          200,292            64,436    (135,856)      (67.8)
                     Medicaid                     798,740         1,071,629      272,899       34.2
                     Total Cases1                 875,792           877,678        1,886        0.2
                     EW’S                            3,846            3,336        (510)      (13.3)
                     Average
                     Cases/Worker                     228              263           35       15.4
                     1
                      Unduplicated cases


                    The average caseload increased since 1996, due to the expansion of the
                    Medicaid Program, to provide coverage to more children and a
                    13.3 percent reduction in the number of EW’s.

                    The CAP must include actions intended to reduce or eliminate deficiencies
                    identified by ME’s, analyses of QC results, audits, and investigations.4
                    When corrective actions have not been effective, the State is required to
                    re-evaluate the deficiency, the causes and corrective actions taken, then
                    develop and implement new corrective actions. The regulations5 also
                    require that the SA CAP must contain (1) specific description and
                    identification of each deficiency, (2) sources through which the deficiency
                    was detected, (3) magnitude of each deficiency, (4) geographic extent of
                    the deficiency, (5) identification of causal factors contributing to the
                    occurrence of each deficiency, (6) identification of any action already
                    completed to eliminate the deficiency, (7) identification of any actions to be
                    taken, the expected outcome, target date for each action, and a date by
                    which the deficiency will have been eliminated, and (8) for each
                    deficiency, a description of the manner in which the SA will monitor and
                    evaluate the effectiveness of the corrective action in eliminating the
                    deficiency.

                    Our review of the CAP's for FY’s 1997 through FY 2000, showed that they
                    were a general skeletal outline format and did not contain the components
                    the regulations required.      For example, the FY 2000 CAP listed
                    13 initiatives with 24 sub-issues that were short statements, such as
                    Provide QC data analysis to districts” without any details of the eight
                    required components (see exhibit B.)


4   7 CFR 275.16, effective January 1, 2000
5   7 CFR 275.17(b)(1-8), effective January 1, 2000




    USDA/OIG-A/27004-3-At                                                                       Page 8
          The following table shows details of the missing CAP elements.

          Table 5
                                                                         COMPONENTS IN CAP1
                            Required Components                        1997    1999      2000
           1) Specific Description of Deficiency                        No      No        No
           2) Source Used to Identify Deficiency                        No      No        No
           3) Magnitude of Deficiency                                   No      No        No
           4) Geographic Extent of Deficiency                           No      No        No
           5) Identification of Causal Factors                          No      No        No
           6) Expected Outcome Target Date Documented
                    Initiatives                                        No       No      1 of 13
                    Sub-Issues                                         No       No      1 of 24
           7) Date Deficiency Eliminated
                    Initiatives                                        No       No        No
                    Sub-Issues                                         No       No        No
           8) Evaluation of Effectiveness of Actions                   No       No        No
           1
               The 1998 CAP was not on file at either FNS or the SA.

          The CAP’s initiatives were generally “to continue” the same actions from
          year to year with the expected completion dates listed as “ongoing.” The
          FY 2000 plan showed that (1) 30 of the 37 initiatives/sub-issues were a
          continuation from prior years’ plans and (2) 33 of the 37 actions had
          completion dates listed as “ongoing” (see exhibit B). For example, the
          FY 1997 CAP identified an initiative to “provide timely action on reported
          information.” The SA has a long history of errors caused by EW’s not
          acting on reported and/or known information such as data exchange alerts
          that affects clients’ benefits. In our FY 1994 audit, we reported the SA’s
          corrective action for workers’ failure to act on (1) client reported
          information was to use specialized workers to process all reported
          changes in each service center and (2) data exchange alerts were that
          each time a case was handled, all alerts were to be reviewed, worked, and
          cleared. The FY 2000 CAP initiatives were to "continue to utilize change
          worker(s) where feasible” and “continue district initiatives to timely process
          data exchange alerts.” The expected completion date for each initiative
          was shown as “ongoing” and had been ongoing since at least FY 1994.

          According to the FY 1994 audit report, EW’s failure to act on reported
          information resulted in a 1.8 percent PER in FY 1992. The same
          deficiency resulted in a 1.4 percent PER in FY 1999, equating to
          $11.3 million of improperly issued benefits. The CAP’s did not contain
          evaluations of the effectiveness of these past ongoing corrective actions to
          eliminate these errors.

          The CAP’s also contained initiatives that were not directly related to error
          rate reduction.    The FY 2000 CAP contained 13 initiatives with
          24 sub-actions, of which 4 of the initiatives and 10 sub-actions were either
          basic program requirements, called for changes to national policies of the




USDA/OIG-A/27004-3-At                                                                   Page 9
                 FS and TCA programs, or proposed increased compensation levels for
                 non-EW’s (see exhibit B). Table 6 shows an example of a basic program
                 requirement.

                 Table 6

                                  INITIATIVES/SUB-ACTIONS                                     COMPLETION DATE
                    Provide QC data analysis to districts                                         Ongoing
                    •      Maintain data base for compiling QC data                                Ongoing
                    •      Provide error summary reports to district staff monthly                 Ongoing
                    •      Provide ad hoc reports and trend analysis to districts                 As Needed

                 At the August 20, 2001, exit conference, SA officials stated the CAP is the
                 core of the State’s strategic PER reduction plan, but has historically not
                 been intended to be an all inclusive and detailed document. They stated
                 that the SA approach towards corrective actions is also linked to its
                 reinvestment initiatives. FNS allows SA’s to reinvest sanctions for high
                 PER's in program management activities intended to reduce future error
                 rates6. Reinvestment initiatives must be directly related to error reduction
                 with specific objectives regarding the amount of error reduction and type
                 of errors that will be reduced. Further, the investment must represent new
                 or increased expenditures and must also represent an addition to required
                 minimum program administration including corrective actions. Therefore,
                 activities such as basic training of eligibility workers or a continuing
                 corrective action from a CAP are not acceptable.

                 The SA officials stated the combination of CAP's and reinvestment
                 initiatives have successfully led to a decline in the PER recent years
                 (see table 7).

                   15.00


                   10.00


                    5.00


                    0.00
                              1996             1997            1998             1999            2000
                                                 Florida PER   National PER




                    Table 7                  1996          1997         1998           1999            2000
                    Florida PER              9.70          10.26        12.94          9.43            9.40
                    National PER             9.23          9.75         10.69          9.88            8.91

6   7CFR 275.23(e)(11), dated January 1, 2000.




    USDA/OIG-A/27004-3-At                                                                                 Page 10
                   The decrease in the FY 1999 and FY 2000 FSP error rates was due in
                   large part to a waiver to FS policy. In June 1998, the SA received a
                   waiver, effective October 1, 1998, from FNS that eliminated the need for
                   HH’s certified for 3 months or less to report certain changes in their
                   earnings. The waiver remained in effect for FY 2000. The waiver resulted
                   in a decrease in the PER because (1) short 3 month certification periods
                   increased the frequency that HH’s were re-certified, thereby, updating
                   their financial circumstances more often, and (2) unreported changes in
                   HH incomes, that in the past would otherwise have been counted as an
                   error in the second and/or third months of certification, were no longer
                   counted as errors.

                   Our review of the SA’s reinvestment plans applicable to liabilities arising
                   from FY 1994 through FY 1998, showed that the more significant activities
                   planned were the development of an automated data brokering service
                   (implemented in January 2001), statewide training conferences, and a
                   competency based pay plan. However, the reinvestment plans did not
                   target specific causes of payment errors by both clients and EW’s.

                   In December 1999, FNS reviewed the SA’s FY 2000 CAP and provided
                   the following comments to the SA:

                             “While we do not approve corrective action plans, we
                             appreciate the opportunity to comment on them. We noted
                             that many activities in Florida’s plan are shown as
                             “ongoing.” We recommend that you set fixed target dates in
                             order to monitor progress towards completion. These
                             include major projects such as the error prone profile, fixing
                             the management screen, computer based training, and the
                             data warehouse project. We recommend that the plan
                             address three error elements more specifically: shelter
                             errors, eligibility based on citizenship or alienage, and TANF
                             income errors. In the most recent analysis for
                             FY 1999 cases, shelter errors are shown as 14.29 percent
                             of all errors.”

                   The SA did not provide FNS with an updated CAP that addressed FNS’
                   concerns. FNS officials stated that they did not have approval authority
                   over the CAP and could only provide technical assistance. FNS does,
                   however, have the authority to withhold administrative funds7 if the SA fails
                   to meet program requirements of which a CAP prepared in conformance
                   with regulatory provisions is a requirement.




7   7 CFR 276.4(a) January 1, 2000.




    USDA/OIG-A/27004-3-At                                                               Page 11
                                     Require the SA to include in the CAP all of the
 RECOMMENDATION NO.1                 mandatory components. If sufficient details
                                     are not provided, FNS should begin sanctions
                                     as provided under 7 CFR 276.

          Agency Response

          In its October 26, 2001, response, FNS stated the following.

                  FNS concurs with this recommendation. We concur that
                  the mandatory components at 7 CFR 275.17 (b) should be
                  included in the CAP. This does include a requirement that
                  the Plan be open ended.

                  FNS will ensure that the November 2001 CAP contains all
                  mandatory components. A letter (attached) has been sent
                  to the SA reminding them of the required elements in the
                  CAP. Upon submission of an acceptable CAP, which is
                  due in November 2001, management decision will be
                  requested.

                  The sanction process will be begun within 60 days if all
                  mandatory components are not contained in the November
                  2001 CAP.

          In its November 5, 2001, response, the SA stated the following.

                  We believe that we have already complied with this
                  recommendation. We have attached an updated version
                  of the state CAP. This plan was reviewed by the
                  Tallahassee FNS Field Office staff on September
                  17 (correspondence attached).

          OIG Position

          We can accept management decision once FNS determines that the SA’s
          revised CAP is acceptable, conforms with requirements, and provides us
          with details of its determination.




USDA/OIG-A/27004-3-At                                                       Page 12
     CHAPTER 2               CAP'S DID NOT TARGET ERROR PRONE ELEMENTS

                      The CAP’s did not address specific actions directed at FS cases with high
                      error prone characteristics and did not target for intensified certification
                      actions those eligibility factors, HH characteristics, and certification
                      elements with high error prone ratings. Almost 75 percent of the
                      FY 1999 errors were related to six elements (e.g. wages) and EW's
                      caused 38 percent of the PER. The CAP did provide some crosscutting
                      initiatives that emphasized EW errors, but as reported in Finding
                      No. 1, these initiatives were generally rolled over from year to year and, as
                      implemented, had no appreciable effect in reducing the error rate.

                      Participation in the FSP is limited to gross and net income standards
                      dependent upon the HH’s size. Effective January 20, 2001, SA’s have the
                      option to allow HH’s with earned income that are certified for 6 months or
                      less to only report changes in earnings that would result in their gross
                      income exceeding 130 percent of the monthly poverty guideline for their
                      size. The new regulations will impact the PER’s because a covered HH’s
                      failure to report a change, except gross income limits, will no longer be
                      counted as an error. We computed that for FY 1999, the PER would have
                      dropped from 9.43 to 7.42 percent if the new rule had been in effect. The
                      amount of improperly issued benefits would likewise have decreased from
                      $76.7 million to $60.3 million.

                      Table 8 shows the impact the regulatory change would have had on the
                      PER for FY 1999.

     Table 8
                                        ACTUAL PER                                     REVISED REGULATION
                                      PER                      BENEFIT                   PER              BENEFIT
          ERROR                                                 ERRORS                                    ERRORS
        ELEMENT           CLIENT        EW       TOTAL        (MILLIONS)    CLIENT        EW     TOTAL (MILLIONS)
      Wages                   3.55       0.67       4.22            $34.3       1.85        0.63    2.48      $20.2
      Shelter & Utility       0.42       0.77       1.19              9.7       0.39        0.73    1.12        9.1
      RSDI8                   0.19       0.37       0.56              4.5       0.19        0.37    0.56        4.5
      Contributions &
      Child Support            0.39       0.09         0.48           3.9       0.37       0.09     0.46         3.7
      TCA                      0.00       0.38         0.38           3.1       0.00       0.38     0.38         3.1
      SSI9                     0.10       0.13         0.23           1.9       0.10       0.13     0.23         1.9
      Total for 6
      Elements                 4.65       2.41         7.06         $57.4       2.90       2.33     5.23       $42.5
      Other Elements           1.16       1.21         2.37         $19.3       1.01       1.18     2.19       $17.8
      TOTAL                    5.81        3.62       9.43          $76.7       3.91       3.51     7.42       $60.3
      8 Retirement, Survivors, and Disability Insurance
      9 Supplemental Security Income



10
.
     7 CFR 275.16(a)-(c), effective January 1, 2000.




    USDA/OIG-A/27004-3-At                                                                            Page 13
          Table 8 shows the SA will still have a base error rate that requires an
          effective CAP to reduce or eliminate the deficiencies. At the time of our
          review, Florida had not decided when it would implement these
          regulations.

                                              The CAP’s did not provide specific corrective
       FINDING NO. 2                          actions to target deficiencies and causal factors
                                              for the six highest error elements (see table 6).
   CAP DID NOT TARGET                         The PER for the six elements was 7.06 percent;
                                              almost 75 percent of the payment errors
  SIGNIFICANT PAYMENT
                                              ($57.4/$76.7 million). Under new regulations,
         ERRORS                               the PER for the six most error prone
                                              elements would have been 5.23 percent, or
          $42.5 million (70 percent).

          Federal Regulations10 require a CAP to substantially reduce or eliminate
          deficiencies in program operations. When a substantial number of
          deficiencies are identified, the SA shall establish an order of priority to
          ensure the most serious deficiencies are addressed immediately and
          corrected as soon as possible.

          Wage and Salary Payment Errors

          Wage and salary errors have always been the single leading cause of
          payment errors with a PER of 4.22 percent in FY 1999, which equated to
          $34.3 million of improper issuances. Under the new regulations, wages
          and salaries would still remain the single largest error factor accounting for
          PER of 2.48 percent and issuance errors of $20.2 million (see table 6).
          Clients caused about 84 percent of the errors because they did not
          correctly report (1) income at certification, (2) earnings that started after
          certification, or (3) frequency of payments. EW’s caused the other
          16 percent of the errors primarily because they did not timely act on
          reported information or apply policies correctly. The FY 2000 CAP had
          five general initiatives related to client caused wages and salary errors
          (see table 9).

          Table 9
           1.   Continue Front-End Fraud Prevention Initiatives to
                eliminate error prone cases from initial approval                  Ongoing since 1997
           2.   Implement use of client educational materials about their
                rights and responsibilities and penalties for noncompliance        Ongoing since 1997
           3.   Utilize ad hoc reports to identify error prone conditions
                requiring case actions                                             Ongoing since 1997
           4.   Implement data brokering service to obtain information on          Pilot started in November
                unreported income and assets                                       1999
           5.   Institute data exchange at client registration (instead of after   Implemented January
                the application for benefits is approved)                          2001




USDA/OIG-A/27004-3-At                                                                           Page 14
          We were unable to determine when the first three initiatives were placed in
          the CAP because no plans were available prior to FY 1997.

          The CAP and reinvestment plans included, as a pilot program, a data
          brokering service (a contractor search of public record databases such as
          a credit check) that may provide new information on unreported assets,
          but that has not been a significant error element in the past. The SA has
          had access to wage and salary and unearned income (e.g. social security)
          information through its data exchange systems. The CAP should have
          indicated what new information, particularly wages and salaries, the SA
          hoped to obtain with this service, the sources of that information, and the
          expected effect on reducing payment errors.            The CAP did not
          provide any information on the preliminary results of the pilot
          program. The pilot was completed and the data brokering system
          was operational in FY 2001. The SA programmed $289,131 of its
          $444,817 FY 1998 reinvestment requirement to operate and maintain the
          system in FY 2001.

          The CAP did provide for a change in procedures to make available to
          EW's data exchange information prior to certification instead of several
          weeks afterward. If the alert information is timely acted on, this change
          should have a positive affect on lowering the PER because the information
          will be available to EW’s before the HH’s are certified. The SA has
          agreements with other Florida and Federal agencies as well as other
          states to share income and benefit information contained in 16 database
          sources. The data includes wages, Retirement, Survivors, and Disability
          Insurance (RSDI), Supplemental Security Income (SSI), unemployment
          compensation, and new hire information. By initiating the matches at time
          of the application, the information would be available to the EW and could,
          in most cases, be acted upon before the application was approved. For
          example:

                 QC Case No. 690865 – This HH was certified for the period
                 February 1999 through June 1999, to receive monthly benefits of
                 $607. The client did not report wages of a HH member who was
                 working at the time of the certification interview. QC found that the
                 individual had been employed since June 1998, with monthly
                 earnings of $4,368 that resulted in overpayments of $607 monthly.
                 Since there were no changes in the HH circumstances during the
                 certification period, this error would not have been affected by the
                 new change in reporting requirements effective January 20, 2001.

          Because this change was implemented at the end of our fieldwork, we
          could not determine its effect on reducing the PER.




USDA/OIG-A/27004-3-At                                                       Page 15
                    Shelter and Utility Payment Errors

                    The CAP did not describe any deficiencies or corrective actions related
                    to shelter and utility expense payment errors, even though these
                    expenses have been the second leading cause of payment errors. The
                    FY 1999 PER applicable to shelter and utility expenses was 1.19 percent
                    equating to $9.7 million. Under the new regulations, the PER still
                    would have been 1.12 percent with $9.1 million of issuance errors (see
                    table 6). The QC review found 66 error cases for shelter and utility
                    expense with 45 of the errors caused by EW. For example:

                            QC Case No. 6900242 – This HH was certified for the period
                            November 1998 through April 1999, to receive monthly benefits of
                            $351. The client reported gross monthly rent of $600 and that
                            $332 of that amount was subsidized by the U.S. Department of
                            Housing and Urban Development. The EW incorrectly included the
                            full $600 of rent in the FS benefit calculation instead of only the
                            $268 actually paid by the HH, which caused an overpayment of
                            $100 monthly.

                    Unearned Income Payment Errors
                    The CAP did not describe any deficiencies related to unearned income
                    errors and did not specifically address corrective actions associated with
                    these types of errors. In FY 1999, the PER applicable to unearned
                    income (RSDI, SSI, TCA, and Child Support) errors was 1.65 percent
                    equating to $13.4 million. The QC review found 55 error cases for
                    unearned income. Two systemic types of errors accounted for 25 of the
                    error cases, which equated to $5.3 million of improperly issued benefits.
                    The two types of errors were that EW’s (1) improperly adjusted or did not
                    adjust unearned incomes in the FS budgets of HH’s whose other
                    entitlement benefits (e.g. SSI) were reduced due to sanctions and (2) did
                    not use child support payment information available through the FLORIDA
                    system to verify this income source. The new regulations would have had
                    no impact upon these type errors.

                    Further details follow:

                    Adjustments for Sanctions - EW’s erred in the treatment of unearned
                    income for 14 cases with SSI or TCA where the clients were sanctioned
                    by those programs to recover past overpayments. Federal law11 prohibits
                    a HH from receiving increased FS benefits when its unearned income is
                    reduced because of a penalty imposed under other public assistance
                    programs. Therefore, the FS budgets of the affected HH’s must be
                    adjusted in the FLORIDA system to include a “phantom” amount for the

11   Public Law 104-193, Personal Responsibility and Work Opportunity Reconciliation Act of 1996, August 2, 1996.




 USDA/OIG-A/27004-3-At                                                                                  Page 16
          unearned income no longer received. The PER caused by the incorrect
          income adjustments was .34 percent equating to $2.8 million of issuance
          errors. For example:

                QC Case No. 690032 – This HH was re-certified for the period
                September 1998 through March 1999, to receive monthly benefits
                of $308. Prior to certification, the client’s TCA monthly benefits of
                $254 were terminated for program noncompliance. The EW
                entered a phantom grant of $254 into the FS budget in order that
                FS benefits would not increase due to the loss of the TCA
                income. When the client reapplied for both TCA and FS in
                September 1998, the penalty was lifted and TCA of $254 was
                included in the FS budget, but the EW failed to remove the
                phantom grant from the budget. As a result, the TCA was double
                counted and the FS benefits were under paid $104 in the sample
                month.

          Child Support Income – EW’s did not use CSE records available in the
          FLORIDA system to verify and compute child support income. CSE
          maintains records of child support payments, and these records were
          available to EW's through the FLORIDA system. Although the CSE data
          was accessible through the FLORIDA system, there were no system
          matches performed to identify unreported child support or system alerts to
          notify EW’s when child support was identified. Had the EW's checked
          CSE records through the FLORIDA system, child support income for
          11 error cases would have been detected. The improper payments related
          to this error element were $2.5 million. For example:

                QC Case No. 691270 – This HH was certified for the period
                July 1999 through September 1999, to receive monthly benefits of
                $167. The client did not report receiving child support payments.
                QC verified the receipt of the payments from the CSE database on
                the FLORIDA system. The unreported child support payments put
                the HH over the gross income limit resulting in an over payment of
                FS benefits of $167 for the sample month.

          SA officials explained that child support payments, even court ordered
          payments, are not generally a stable source of income. Therefore, the
          FLORIDA system was not programmed to automatically update the HH’s
          FSP budgets with the child support income from the CSE records. EW’s
          must review the CSE child support payment records and manually enter
          the data into the HH’s FSP budget to compute eligibility and benefit levels.

          At the August 20, 2001, exit conference, SA officials stated that the
          reinvestment initiatives must be considered in evaluation of
          corrective actions. The SA’s plans for reinvesting FY 1994 through




USDA/OIG-A/27004-3-At                                                       Page 17
           FY 1996 liabilities provided for statewide training conferences, and district
           initiatives for additional staff training. The SA’s anticipated outcome from
           the training sessions was to (1) assist supervisors in better managing their
           units and supporting their staff, and (2) increase the EW’s casework
           payment accuracy.

                                   Require the SA to prepare a CAP that
 RECOMMENDATION NO. 2              provides specific descriptions of deficiencies
                                   identified and specific corrective actions
                                   designed to target payment errors caused by
       wages and salaries, shelter expenses, and unearned income errors.

           Agency Response

           In its October 26, 2001, response, FNS stated the following.

                  FNS concurs with this recommendation. We agree that
                  sufficient details should be provided in the CAP that identify
                  and address corrective actions for the top three casual
                  factors that contribute to the payment error rate. The letter
                  referenced in Recommendation #1 includes language that
                  specific correction actions relative to wages and salaries,
                  shelter expenses and unearned income must be included in
                  the CAP. It was further suggested that activities negotiated
                  in the Reinvestment Agreement that address the payment
                  error rate should be referenced in the CAP.

           In its November 5, 2001, response, the SA stated the following.

                  We believe that we have already complied with this
                  recommendation. Please refer to the revised CAP. The
                  plan is based on the targeting of high error elements with a
                  focus on all error elements. We have added two additional
                  columns to the plan.          One is headed “Targeted
                  Error/Deficiency” and the other is “Focus of the
                  Error/Deficiency”. This information is listed beside each
                  error reduction activity. The last page of the CAP is the
                  Error Deficiency Chart and provides a key to these columns.
                  The primary Focus of all corrective action is directed toward
                  earned and unearned income and shelter expense errors.

           OIG Position

           We can accept management decision once FNS determines that the SA’s
           revised CAP is acceptable, conforms with requirements, and provides us
           with details of its determination.




USDA/OIG-A/27004-3-At                                                         Page 18
                                      Require the SA to develop a program to match
 RECOMMENDATION NO. 3                 the FLORIDA system with the CSE records
                                      and to produce an alert to the EW whenever a
                                      mismatch occurs.
           Agency Response

           In its October 26, 2001, response, FNS stated the following.

                 FNS concurs with this recommendation to the extent that
                 mismatched amounts should be reconciled. We will provide
                 technical assistance to Florida in developing this
                 recommendation or a reasonable alternative to identify
                 mismatched information for immediate action. A program
                 review to include this element will be conducted in the third
                 quarter of Fiscal Year (FY) 2002. If the process is not in
                 place by the time of this review, corrective action with a
                 specific due date will be included in the review report.

           In its November 5, 2001, response, the SA stated the following.

                 We agree with this recommendation. Programming has
                 been requested to comply with this recommendation.

           OIG Position

           To achieve a management decision, we need specific timeframes for
           completion of the system program.

                                    The rate of EW caused payment errors has
      FINDING NO. 3                 not improved as a result of the CAP’s and a
                                    reduction in their caseloads.           The
 CAP DID NOT TARGET EW              FY 1999 PER for EW caused errors was
                                    3.62 percent equating to $29.4 million of
   PAYMENT ERRORS
                                    improperly issued benefits. The new change
                                    in HH reporting requirements effective
         January 20, 2001, will have minimum effect on lowering EW caused
         errors. Under the new regulations, the EW caused PER would have
         been 3.51 percent equating to $28.5 million improperly issued benefits.
         Table 10 shows the general causes of the EW errors and their impact
         under the old and new regulations.




USDA/OIG-A/27004-3-At                                                        Page 19
          Table 10
                                                        ACTUAL 1999                REVISED
                                                                                REGULATIONS
                                                         PER                          PER
                                                            BENEFITS                    BENEFITS
                                                 PERCENT (MILLIONS)          PERCENT (MILLIONS)
           Total PER                                  9.43    $76.7              7.42      $60.3
           EW Total                                   3.62    $29.4              3.51      $28.5
            1. Policy Incorrectly Applied             1.17     $9.5              1.17       $9.5
            2. Failure to Take Action On:
                 a. reported information                    1.39    $11.3        1.32       $10.7
                 b. impending changes                       0.09     $0.7        0.09        $0.7
                 c. inconsistent information                0.25     $2.0        0.24        $2.0
            3. Failure to verify Required
                 Information                                0.25     $2.1        0.22        $1.8
            4. Other                                        0.47     $3.8        0.47        $3.8
           Client Total                                     5.81    $47.3        3.91       $31.8

          EW error rates from FY 1996 through FY 2000 ranged from 33.8 percent
          to 43.3 percent of the total annual PER’s. At the same time, the average
          number of FS cases per EW declined from 187 to 114 -- 39 percent (see
          table 11).

          Table 11
                                                                         EW
                                                              PERCENT
                                                              OF TOTAL      AVERAGE     PERCENT
               FY           TOTAL PER          PER               PER       CASELOAD     DECLINE
           1996                    9.70              3.28            33.8        187          N/A
           1997                  10.26               3.90            38.0        162         13.4
           1998                  12.94               4.57            35.3        131         19.1
           1999                    9.43              3.62            38.4        125           4.6
           20001                   9.24              4.01            43.4        114           8.8
           Total                                                                             39.0
           1
               Preliminary PER


          At the August 20, 2001, exit conference, SA officials stated that evaluation
          of workers caseloads must include all program cases. The generic EW’s
          are responsible for several programs including TCA and Medicaid in
          addition to the FSP. SA officials pointed out the overall caseload for all
          programs had actually increased from an average of 228 cases to
          263 cases per worker. The average caseload increased due to the
          expansion of the Medicaid Program to provide coverage to more children
          and a 13.3 percent reduction in the number of EW’s (see table 4).

          Not timely acting on reported information was the single largest cause of
          EW errors, accounting for $11.3 million (38 percent) of their payment
          errors (see table 8). The information not acted on was reported to the FS
          offices either by the client or was available to the EW’s through other
          sources, such as data exchange alerts. Examples were:




USDA/OIG-A/27004-3-At                                                                   Page 20
                QC Case No. 690237 - The HH was certified for the period October
                1998 through March 1999, to receive monthly benefits of
                $230. Although a HH member began work June 19, 1998,
                (about 3½ months before certification on October 10, 1998) the
                head of the HH did not report any wages to the EW. On
                October 9, 1998, the EW received a data exchange alert, which
                showed that the HH member was employed. The QC reviewer
                found the data exchange alert in the case record and determined
                an overpayment of $220 occurred monthly because the EW failed
                to act on the alert.

                QC Case No 690058 – This HH was re-certified for the period
                June 1998 through November 1998, to receive monthly benefits of
                $264. Two data exchange alerts were in the case record. The
                alerts showed a HH member was employed by the same employer
                since 1996. However, the EW did not take action on the two alerts.
                The unreported monthly earnings of $949 put the HH over the
                gross income limit, resulting in total ineligibility and an overpayment
                of $264 monthly.

          Other causes of EW’s errors were that they (1) did not apply policy
          correctly, (2) did not verify required information, and (3) made other errors
          (e.g. computation) when computing a HH benefits.

          The FY 2000 CAP contained the following five ongoing initiatives for
          reducing errors caused by EW’s not acting on reported information:

          Table 12
           1.   Provide timely action on reported information      Ongoing since at least 1997
           2.   Continue to utilize reported change worker(s)
                where feasible                                     Ongoing since at least 1997
           3.   Continue district initiatives to complete alerts
                and expected changes                               Ongoing since at least 1997
           4.   Continue district initiatives to timely process
                Data Exchange alerts                               Ongoing since at least 1997
           5.   Implement change reporting centers                 Ongoing since at least 1999

          We were unable to determine when the initiatives were placed in the
          CAP’s because no plans were available prior to FY 1997.




USDA/OIG-A/27004-3-At                                                                      Page 21
                                      Require the SA to include in its CAP specific
 RECOMMENDATION NO. 4                 actions to target EW payment errors with
                                      timeframes and evaluation and monitoring
                                      procedures to ensure their implementation and
                                     effectiveness.
          Agency Response

          In its October 26, 2001, response, FNS stated the following:

                FNS concurs with this recommendation. However, it should
                be noted that the SA has made significant improvements in
                payment accuracy over the past ten years improving from a
                $98 million sanction to an error rate below the national
                average and no sanction.

                This requirement to include specific action to target EW
                payment errors is included in our letter of October 26, 2001,
                regarding the CAP referenced in Recommendation #1. In
                this letter we further recommended that the Reinvestment
                Plan be referenced in the CAP to tie all State activities
                directed at error rate reduction in one comprehensive
                document.      FNS will assure that these elements are
                contained in the November 2001 Florida CAP.

          In its November 5, 2001, response, the SA stated the following.

                We believe that we have already complied with this
                recommendation. The CAP has been amended to clarify the
                targeting of EW payment errors. The monitoring of Florida’s
                field staff has always been captured and evaluated as a
                corrective action activity.

          OIG Position

          We can accept management decision once FNS determines that the SA’s
          revised CAP is acceptable, conforms with requirements, and provides us
          with details of its determination.




USDA/OIG-A/27004-3-At                                                       Page 22
CHAPTER 3            FOOD STAMP CLAIMS MANAGEMENT NEEDS
                                IMPROVEMENT

          The SA had not taken sufficient action to improve its claims management
          activities. In January 1994, OIG reported that the SA did not (1) timely
          process claim referrals resulting in a 7-year backlog (referrals awaiting
          review), and (2) require recoupment of some established claims from
          participating HH’s. In January 1997, FNS issued the SA an informal
          warning of possible funds suspension due to continuing problems with
          claims management. FNS placed the suspension in abeyance when the
          SA provided a February 28, 1997, plan of action to improve claims
          management. However, FNS requested the State to take further actions
          to include (1) additional staff for the claims function (staffing had been
          reduced 35 percent in spite of the backlog which has continued for a
          number of years) and (2) plans to bring the backlog current by the end of
          FY 1998. The conditions had not been corrected. As of July 2000, about
          128,700 FSP claim referrals were backlogged, and based on resources
          and ongoing workloads at that time, over 13-years would be needed to
          work the backlog, which we estimate will yield receivables of about
          $14.7 million. The backlog continued, in part, because since our
          1994 audit, the SA reduced its BRU staff by 30 percent (87 to 61 workers).
          In addition, the SA did not always code claims for allotment reduction.
          This resulted in 1,291 claims valued at $678,532 that was not subject to
          recoupment during our test periods. Also, as of September 30, 2001, the
          HH’s claim balances in the BRS, the system used to prepare the form
          FNS-209, Quarterly Financial Activity Status of Claim Against HH’s, was
          understated by $490,340.

          In February 2000, the Florida AG completed an audit of the SA’s
          management of the benefit over-issuance recovery process. The AG
          found significant deficiencies in the areas of:

          •    Reporting of claims activities,

          •    Accounting for claim collections, and

          •    Processing claim referrals.




USDA/OIG-A/27004-3-At                                                     Page 23
                   The AG concluded in its report:

                            “Given the numerous deficiencies, the SA has little assurance
                             as to the accuracy and completeness of the benefit recovery
                             system and client status data maintained in the FLORIDA
                             system and BRS. In absence of such assurance, the
                             reliability of information used to manage the benefit payment
                             process is greatly diminished.”


                                           The SA continues to have a large backlog of
            FINDING NO. 4                  claims against HH’s who were over issued
                                           benefits, a condition reported in our prior
         BACKLOGGED CLAIM                  audit. As of July 31, 2000, the SA had
                                           206,263 claim referrals backlogged for all
             REFERRALS
                                           programs (FS, Medicaid, and TCA). Based on
                                           the claims established in the State fiscal year12
               (SFY) 2000, we estimated that the backlog of referrals
               (1) represents 28,838 new FS claims valued at $14,765,078 and (2) will
               take over 13 years to work. The SA had not implemented effective
               corrective actions to eliminate the backlog of claim referrals and, in fact
               since 1994, staff assigned to process claim referrals decreased
               30 percent -- from 87 workers down to 61 workers.

                    An effective claim program deters recipient abuse and increases the
                    recovery of over issued benefits. Potential over-issuances should be
                    promptly investigated and claims processed while pertinent data about the
                    cases are available from collateral contacts and before the statutes of
                    limitations have expired.       Collection actions, prosecutions, and
                    administrative fraud determinations cannot be initiated until claims are
                    established.

                   FSP regulations13 require that SA’s establish a claim against any HH that
                   receives more benefits than it is entitled to receive. EW’s make referrals,
                   through the FLORIDA system, to their supervisors when they identify
                   or have probable cause to believe that a HH was over issued benefits.
                   The supervisor screens the referrals before they are sent to the
                   State’s Benefit Recovery Unit (BRU) for a claims determination. BRU
                   workers process the claim referrals generated for all public assistance
                   programs (FS, Medicaid, and TCA). The BRU workers investigate the
                   referrals, obtain documentation to support the over-issuances, compute
                   over-issuances,



12   July 1, 1999 through June 30, 2000
13   7 CFR 273..18(a), dated January 1, 2000.




 USDA/OIG-A/27004-3-At                                                                 Page 24
                   and establish claims accordingly. When fraud is suspected, HH's are
                   referred to the Division of Public Assistance Fraud for further investigation
                   and adjudication through the administrative process.

                   In a January 1994 audit report14, we reported that the SA was not
                   monitoring or tracking the status of referrals and producing recurring
                   management information on the status of backlogged referrals. The audit
                   reported that (1) the SA had a backlog of 460,600 referrals that
                   represented 115,117 potential FS claims valued at $57.1 million and (2) it
                   would take the SA over 7-years to clear the backlog. In response to the
                   audit, the SA acknowledged the problem and implemented a management
                   system to track monthly the number of backlogged claim referrals.
                   However, these referrals were not aged.

                   As of July 31, 2000, the SA still had a backlog of 206,263 claim
                   referrals for all programs. During SFY 2000, the BRU processed
                   148,064 referrals that resulted in 36,131 claims (24.4 percent). Of the
                   36,131 claims, 20,704 (57.3 percent) involved FS overpayments that
                   averaged $512. Based on this average, we estimate that the backlog of
                   FSP claims to be 28,838 valued at $14,765,078. In SFY 2000, the BRU’s
                   processed an average of 12,339 claim referrals per month while they
                   received an average of 11,058 new referrals each month for a net monthly
                   decrease in the backlog of 1,281 referrals. We estimate that over
                   13-years will be required to eliminate the backlog based on resources and
                   production levels as of July 2000.

                   On March 28, 1994, the SA received a waiver from FNS that allowed it to
                   raise the threshold for making a FS claim referral from $35 to $100. Since
                   then, FNS has allowed the following additional actions.

                   •   In May 1997, the SA was allowed to purge 185,451 FSP claim referrals
                       that were over 3 years old, and

                   •   In August 1998, the waiver threshold for making FS claim referrals was
                       increased from $100 to $250.

                   These actions were designed to eliminate the FS claims referral backlog
                   by the end of FY 1998; however, they did not resolve the problem.
                   Raising the over-issuance referral threshold and purging FSP claim
                   referrals artificially reduced the backlog and restricted its growth at the
                   expense of not recovering over issued benefits.

                   At the August 20, 2001, exit conference, the SA stated that in 1997, FNS
                   approved a special CAP to improve claims management and that they

14   OIG Report 27013-03-At, January 1994.




 USDA/OIG-A/27004-3-At                                                                Page 25
               were in compliance with the plan. They stated that since 1998, the
               backlog of all program referrals has decreased 34.7 percent
               (from 263,996 to 172,335), and the SA was substantially in compliance
               with timelines standard for processing new FSP claim referrals. 15


                                                        BACKLOG


                            300,000         263,996
                                                                  208,695
                            200,000                   157,716                     172,335
                                                                        128,689             108,337
                            100,000

                                    0
                                           FY 98/99               FY 99/00         FY 00/01

                                               Total Backlog         FSP Backlog



                                  Referral Processing Time (SFY 2001)
                                     92

                                     90

                                     88

                                     86
                                           Jul-Sept     Oct-Dec    Jan-Mar   Apr-Jun   SFY
                                 Percent    90.52        89.50 87.91         90.69     89.67


               The above backlog statistics do not make any distinction between the
               referrals that were worked from those that were dropped due to age, and
               the timelines statistics only apply to new referrals received.

               Our review showed that the State was not in compliance with several of
               the FNS corrective action requirements from 1997. The FNS review of the
               special CAP cited the SA for not addressing inadequate staff to work claim
               referrals timely and lack of a target date to eliminate the backlog of

15 7CFR273.18(d) dated July 2, 2000, requires that the SA establish a claim before the last day of the

quarter following the quarter in which the overpayment was discovered and ensure that no less than
90 percent of all claim referrals are either established or disposed of according to this timeframe.




 USDA/OIG-A/27004-3-At                                                                          Page 26
          referrals.
          • In May 1997, FNS reviewed the claims CAP and provided the following
              to the State.

                 …we believe the actions are not sufficient to make
                 substantial improvement. We request that the State submit
                 additional actions which should include: Additional staff for
                 the claims function. Staffing for claims has been reduced by
                 about 35 percent in the last year, in spite of the backlog,
                 which has continued for a number of years. Plans to
                 address the backlog in Dade County and make it current by
                 the end of Federal Fiscal Year 1998. Improvements in Dade
                 can pilot changes for the rest of the State.

          •   FNS reviewed the SA’s revised CAP and on September 30, 1997,
              responded with the following.

                 “...we would still like to request revisions to show actions
                 needed. Temporary staff for the claims function – Staffing
                 for claims was reduced by about 35 percent in SFY 1996,
                 in spite of the backlog which has continued for a number of
                 years. The CAP on file commits the State to seek
                 additional staff from the Legislature in the next legislative
                 session. We would appreciate receiving a copy of the
                 analysis by the State, which shows what staff will be
                 requested. Also, we continue to recommend that the State
                 consider temporary assignments as an interim measure.
                 Since caseloads have declined, we believe that some staff
                 should be available for temporary assignments.              A
                 commitment to make the backlog of referrals current in
                 Dade County and statewide by the end of FFY 1998. The
                 definition of current would be that claims should be filed by
                 the end of the quarter following the quarter in which the
                 referral is made.”

          •   In a June 1999, ME review FNS stated the following regarding the
              claims backlog.

                 Florida did not meet its corrective action commitment to
                 eliminate the backlog by the end of Federal Fiscal Year
                 1998. The State statistics now show that the number of
                 referrals cleared has increased to a rate which stays
                 abreast of the rate of referrals.       The backlog has
                 decreased by dropping old referrals. However, the State
                 still reports a backlog of 158,000 referrals for the Food
                 Stamp program.




USDA/OIG-A/27004-3-At                                                        Page 27
                   Although the backlog has been declining over the last several years, the
                   SA has not provided sufficient BRU staff to timely process the backlog.
                   Since 1996, BRU staff was reduced from 87 to 61 workers
                   (as of July 2000) – a 30 percent decrease. The staffing decrease was
                   incongruous with the continuing large backlog of claim referrals and the
                   SA’s past actions to increase the recovery thresholds and purge referrals.

                   A SA contracted study of the BRU staffing completed in August
                   2000, recommended shifting the existing BRU staff among the 15 district
                   offices to better process claim referrals. The study did not evaluate the
                   overall staffing level or consider the claim referral backlog issue.
                   However, the study did make the following observation, “that while
                   analyzing the adequacy of current staffing levels was beyond the scope of
                   the review, the findings suggest the current staffing levels are not
                   adequate to perform the current workload.”

                   We interviewed BRU officials at the two districts with the largest backlog of
                   claim referrals to determine why they have been unable to eliminate the
                   backlog. The district BRU officials stated that the backlog was the result
                   of inadequate staffing to process the number of new claim referrals
                   received each month, much less addressing the backlog of referrals. One
                   district official stated that even with the staff increase the unit may receive
                   after the reallocation, she did not believe that the increase would be
                   enough to work both the new referrals and eliminate the backlog of claim
                   referrals.

                   Federal regulations16 provide that FNS shall make a determination of the
                   efficiency and effectiveness of a SA’s administration of the FS program. If
                   FNS determines that the administration is inefficient or ineffective, it may
                   warn the SA that a suspension and/or disallowance of administrative funding
                   are being considered. After the warning, FNS can suspend or disallow
                   administrative funds.

                                        Formally warn the SA that funds suspension
     RECOMMENDATION NO. 5               will begin if it fails to develop and implement a
                                        plan providing the necessary resources to
                                        timely process claim referrals and eliminate
           the backlog of claim referrals.

                   Agency Response

                   In its October 26, 2001, response, FNS stated the following.

16   7 CFR 276.4 (a)(1-3), dated January 1, 2000.




 USDA/OIG-A/27004-3-At                                                                  Page 28
                 “FNS concurs with this recommendation, in part. Prior to
                 issuing any formal warning, program rules require the State
                 be given an advanced notification. Since the last advanced
                 notification of the claims backlog issue was made in January
                 1997, the Regional Office will issue another advanced
                 notification by November 2, 2001, and furnish OIG a copy.
                 The Regional Office will ensure that the State submits a
                 corrective action plan that provides for substantial reduction
                 in the backlog within one year of the issuance of the audit.
                 We will monitor to ensure that half of the reductions are
                 actually made during the first half of that year. If the State
                 fails to meet the terms of the advanced notification, the
                 process will advance to a formal warning, as required by
                 Section 276.4 of the program regulations.”

                 Please note that the Regional Office has proposed a working
                 definition of what it means to eliminate or substantially
                 reduce the backlog. Since Florida’s overall performance on
                 establishing and collecting claims is average, or above
                 average, depending on the category, and when compared to
                 other States, we have determined that up to a nine month
                 backlog would be acceptable. The program rules allow
                 States to maintain some backlog and give the Regional
                 Office the authority to approve longer backlog standards if
                 overall claims operation is satisfactory. The nine month
                 standard provides a firm target which would place Florida’s
                 backlog in line with other States that are also high
                 performers overall.

          In its November 5, 2001, response, the SA stated the following.

                 We do not agree with the recommendation. The state has
                 made significant progress in reducing this backlog; data in
                 support of this position is attached and was previously
                 provided to the auditing staff.

          OIG Position

          The large backlog of claims has continued since the issuance of our prior
          audit report in January 1994. FNS’ issuance of the advance notification in
          January 1997 stemmed from that audit report. Although the backlog has
          been declining over the last several years, it is still substantial and, based
          on resources as of July 2000, about 13-years would be required to
          eliminate it. Further, FNS’ ME review attributed to the decrease, in part, to
          simply “dropping” old refunds.




USDA/OIG-A/27004-3-At                                                         Page 29
          To achieve a management decision, we need details of the SA’s plan to
          reduce the backlog to no more than 9-months. The plan should not
          include provisions for purging or dropping old referrals and should include
          specifics regarding resource commitments and timeframes to meet FNS’
          1-year timeframe for reducing the backlog to no more than 9-months.

                                   Allotment reduction was not always invoked
     FINDING NO. 5                 against clients with delinquent claims. Claims
                                   workers failed to change the FLORIDA system
DELINQUENT CLAIMS NOT              repayment method code to invoke allotment
SUBJECT TO ALLOTMENT               reduction for HH’s who were not repaying their
                                   claims. Therefore, benefits of clients with
     REDUCTIONS                    delinquent claims were not subject to allotment
                                   reduction. We found that 1,291 claims valued
        at $678,532 were not subject to recoupment during our test period.

          The SA maintains two claims accounting systems, the BRS and the
          FLORIDA system. The BRS is used to prepare and report claim balances
          on the FNS-209 report. The FLORIDA system is used to establish claims,
          recoup claims from active recipients’ benefits, record cash payments, and
          maintain recipient claim balances. Claim information is first entered into
          the FLORIDA system and then transferred into the BRS.

          The FLORIDA system does not provide an automatic default to select a
          collection method when a claim was established. The BRU workers send
          the responsible individual a letter requesting a repayment method. If an
          individual elects benefit reduction or did not make an election, the worker
          entered a code into the FLORIDA system to begin allotment reduction.
          However, if the individual agrees to a repayment plan, a recoupment code
          is not entered into the FLORIDA system.

          Each month the SA performs a match (report BP305L1 Cross Match
          Report/Active Claimants Not On Recoupment) between the BRS and
          FLORIDA system to identify individuals with claims that are active in the
          FLORIDA system, but are not being collected by recoupment. The report
          is sent to the district offices where collection managers are responsible for
          ensuring that the claims are being collected. For individuals that fail to
          submit agreed upon cash payments, BRU workers are required to change
          the repayment method code in the FLORIDA system to initiate
          recoupment.

          For July 2000, the SA’s BP305L1 report identified 4,036 individuals active
          in the FLORIDA system with an outstanding claim balance of $2.7 million
          that were not on recoupment. We selected a statistical sample of
          50 cases for review to ensure that the SA was collecting the claims
          (see exhibit C). We found 16 individuals with claims totaling $7,237 who




USDA/OIG-A/27004-3-At                                                        Page 30
          were receiving FS benefits and not repaying their claims. Of the other
          34 claims, 20 individuals’ claims were being recouped, 1 individual was
          making cash payments, 2 individuals were making payments on another
          claim, 1 individual repaid the claim in full, and 10 individuals were not
          participating in the FS program.

          Based on the statistical sample, we estimate that 1,291 claims totaling
          $678,532 were not being collected in July 2000 (see table 13).

                        Table 13
                                           CLAIMS NOT
                                             BEING                     SAMPLING
                                           COLLECTED1                  PRECISION
                        Number                     1,291                                .347
                        Value                   $678,532                                .523
                    1
                        The number and value of claims represents the point estimate.


          Examples of the uncollected claims follow.

                Claim A - The BRU worker did not change the payment status for
                this $2,820 claim from installment payments to recoupment after
                the individual failed to make scheduled payments. At the time of
                our review, the individual had participated in the FSP for eight
                consecutive months without making payments on the claim.

                Claim B - The BRU worker did not update a $254 claim record
                when one individual changed to a new HH. At the time of our
                review, the individual had participated in the FSP for three
                consecutive months without making payments on the claim.

          At the August 20, 2001, exit conference the SA stated that
          auto-recoupment was being evaluated for possible legal ramifications and
          for development in the FLORIDA system. The SA further stated that
          actions had been taken to improve is claims management system by
          (1) requesting and receiving approval from the State Legislature to
          implement consolidation of the FLORIDA and BRS systems,
          (2) contracting with a vendor to evaluate best practices and recommend
          actions to improve the referral, claims, and collection process, and
          (3) determining the best strategies to correct the BRS accounts out of
          balance. The SA has established a June 2002 deadline for completing the
          necessary system reprogramming.

                                                Require the SA to program the FLORIDA
 RECOMMENDATION NO. 6                           system to code all new and existing recipient
                                                claims for automatic recoupment to ensure
                                                collection will begin when an individual receives
          FS benefits.




USDA/OIG-A/27004-3-At                                                                          Page 31
                     Agency Response

                     In its October 26, 2001, response, FNS stated the following.

                               FNS basically concurs with this recommendation. It should
                               be pointed out that FS regulations state that State agencies
                               have the option of offering to clients repayment agreements
                               in lieu of benefit reduction. FNS will work with the SA in
                               developing recoupment as the primary action in repayment
                               with repayment agreements in lieu of benefits reduction only
                               if specifically requested by the client with payments regularly
                               made.

                     In its November 5, 2001, response, the SA stated the following.

                               We agree with this recommendation.

                     OIG Position

                     To achieve a management decision, we need details and timeframes for
                     implementing the recommended action.

                                      The SA did not accurately report its claims
          FINDING NO. 6               receivable to FNS on the Form FNS-209 report.
                                      As of September 30, 2000, the SA’s FNS
      INADEQUATE FSP CLAIM            209 report listed 205,699 claims valued at
                                      $51.1 million. We found that 3,177 claims had
       ACCOUNTING SYSTEM
                                      understated claim balances resulting in
                                      understated receivables of $490,340. The SA
             had not reconciled the BRS with the FLORIDA system to determine an
             accurate claims balance.

                     FSP regulations17 provide that the SA is responsible for maintaining a
                     claims accounting system. This system must include the information
                     necessary to detail the State’s activities relating to establishment,
                     collection, and writing-off of claims against HH’s. Claim information is
                     reported to FNS on the quarterly FNS-209 report.

                     We requested the SA to match the BRS and FLORIDA systems to identify
                     the number of FSP claims in the two systems whose balances did not
                     match. The match was performed on November 6, 2000, and reflected
                     the number of claims and balances in the systems on that date. The
                     match identified 3,177 FSP claims that were recorded in both the BRS and

17   7 CFR 273.18 (k) (2)), dated January 1, 2000.




 USDA/OIG-A/27004-3-At                                                                     Page 32
          FLORIDA systems but the amounts did not balance. The claims balance
          in the FLORIDA system was $490,340 more than what was reported in the
          BRS. Because BRS is used to report claims receivable to FNS, the
          FNS-209 report is understated by $490,340 (see table 14.)

          Table 14
                                        NO OF
                                       CLAIMS       FLORIDA        BRS        DIFFERENCE

           CLAIMS OUT OF BALANCE            3,177   $2,491,076   $2,000,736      $490,340


          SA officials attributed the claims management problems to the lack of
          integrating a claims management system into the FLORIDA system when
          it was developed. They also stated that they were in the process of
          integrating all claims activities into the FLORIDA system and planned to
          eliminate the BRS system. SA officials expect the FLORIDA system’s
          claims redesign and integration to be complete within 3-6 years.

                                     Require the SA to periodically reconcile the
 RECOMMENDATION NO. 7                FLORIDA and BRS claims data to ensure the
                                     accuracy of data maintained in both systems.

          Agency Response

          In its October 26, 2001, response, FNS stated the following.

                FNS concurs with this recommendation. The SERO Grants
                Management Section will monitor the FNS-209’s each
                quarter for accuracy. We will require an (1) updated list of
                claims that are in BRS but are not in FLORIDA, (2) claims in
                FLORIDA that are not in BRS and (3) claims in both systems
                with different balances.

          In its November 5, 2001, response, SA stated the following.

                We do not agree with this recommendation. A quarterly data
                run to identify accounts that are out of balance is already in
                place and accounts are being reconciled on a daily basis.

          OIG Position

          To achieve a management decision, we will need details and timeframes
          of how differences will be reconciled and correct balances reported on the
          FNS-209 report.




USDA/OIG-A/27004-3-At                                                           Page 33
                                     Require the SA to develop and implement a
 RECOMMENDATION NO. 8                specific plan for one FSP claims management
                                     system.

          Agency Response

          In its October 26, 2001, response, FNS stated the following:

                FNS will continue to insist that the State agency implement a
                single system. On a quarterly basis, the State must report
                all efforts taken since our review toward a single system and
                a projected date for implementation. Once the single system
                is implemented, we will visit the State agency to make
                certain the FNS-209 reports are accurate.

          In its November 5, 2001, response, the SA stated the following.

                We do not agree with this recommendation. We have begun
                the development of a new computer system that will facilitate
                the convergence of the current dual systems and have
                already reported our activity in this area to USDA FNS.
                Development of the new system has been underway since
                April 2001.

          OIG Position

          To achieve a management decision, we               need   timeframes   for
          implementation of the single claims system.

                                     Until the system redesign is complete, require
 RECOMMENDATION NO. 9                the SA to implement control to ensure
                                     accurate FNS-209 report data.

          Agency Response

          In its October 26, 2001, response, FNS stated the following:

                SERO Grants Management Section will ensure accurate
                FNS-209 report data via quarterly monitoring. The fourth
                quarter FY 2001 FNS-209 is due in the Regional Office in
                November 2001. At that time we will require the State to
                document efforts made in reconciling the BRS and Florida
                systems as well as efforts toward a single system
                (see recommendation responses #8 and #9).




USDA/OIG-A/27004-3-At                                                       Page 34
          In its November 5, 2001, response, the SA stated the following.

                We do not agree with this recommendation. We already
                have in place a monthly reconciliation process that ensures
                all entries made to the FLORIDA system that should be
                reflected in the FNS-209 report are downloaded to the BRS
                system for inclusion in the FNS-209. At the exit conference
                we provided auditors a sampling which we feel shows our
                FNS-209 to be accurate. Additionally, an audit conducted by
                FNS in April 2001 noted that our FNS-209 contained no
                discrepancies.

          OIG Position

          To achieve a management decision, we will need details and timeframes
          of how differences will be reconciled and correct balances reported on the
          FNS-209 reports.




USDA/OIG-A/27004-3-At                                                       Page 35
EXHIBIT A – SUMMARY OF MONETARY RESULTS

   FINDING NO.        DESCRIPTION          AMOUNT                        CATEGORY

                                                         FTBPTBU: ¹ Management or Operating
        4         Claim Referral Backlog   $14,765,078   Improvement
                  Claims Not Being                       FTBPTBU: ¹ Management or Operating
        5         Recouped                   $678,532    Improvement
                  Claims Receivable
        6         Understatement             $490,340    Accounting Classification Errors
  ¹Funds To Be Put To Better Use




USDA/OIG-A/27004-3-At                                                                       Page 36
EXHIBIT B – STATE OF FLORIDA FY 2000 CAP
                                                                                      Page 1 of 2


                       INITIATIVES/SUB-ISSUES                               COMPLETION DATE
   1. Develop and implement FY 99-00 monitoring plan                            Ongoing1
      1.3 Include review of change reporting procedures                           Ongoing1
      1.4   Conduct a review of application processing time standards and
            program access                                                        Ongoing 1
   2. Implement district level monitoring plans                                   Ongoing
      2.1 Encourage use of the First Party Review                                 Ongoing
      2.2 Continue Second Party Review (SPR)                                      Ongoing
      2.3 Implement standardized food stamp targeted reviews and
           reporting                                                              Ongoing
   3. Provide QC data analysis to districts                                       Ongoing1
      3.1 Maintain data base for compiling QC data                                Ongoing 1
      3.2 Provide error summary reports to district staff monthly                 Ongoing1
      3.3 Provide ad hoc reports and trend analysis to districts                 As Needed1
   4. Provide timely action on reported information *                             Ongoing
      4.1 Continue to utilize reported change worker(s) where feasible            Ongoing
      4.3 Continue district initiatives to complete alerts and expected
           changes                                                                Ongoing
      4.4 Continue district initiatives to timely process Data Exchange
          alerts                                                                    Ongoing
      4.5 Implement change reporting centers                                        Ongoing
      4.6 Pursue simplified food stamp program for TCA HH                          Ongoing 2
      4.7 Pursue alignment of food stamp and TCA policy/procedures          After FLORIDA2 system
                                                                                   delinkage
   5. Aggressively pursue misspent funds                                            Ongoing
      5.1 Continue Front-End Fraud Prevention (FFP) initiatives to
            eliminate error prone cases from initial approval                     Ongoing
   1
     Basic program requirements
   2
     National changes to program policies




USDA/OIG-A/27004-3-At                                                                   Page 37
                                                                                             Page 2 of 2


                           INITIATIVES/SUB-ISSUES                                 COMPLETION DATE
   6. Provide staff with management tools needed to improve efficiency and
       effectiveness                                                                     Ongoing
      6.1 Assist in the implementation of data broker and change reporting
            centers by providing technical support and expertise                         Ongoing
      6.2 Institute data exchange at client registration                                 Ongoing
      6.3 Continue to improve FLORIDA system programming                                 Ongoing
      6.4 Provide access to data warehouse                                               Ongoing
      6.5 Fix the management screen to improve the detection of income
            discrepancies                                                                Ongoing
      6.6 Provide “Tip of the Day” to all FLORIDA users                                  Ongoing
   7. Implement competency-based pay plan                                                Ongoing3
      7.3 Expand coverage groups beyond the public assistance specialist and
            supervisor positions                                                 Will Begin After 07/01/003
   8. Develop and implement training plan                                                Ongoing1
      8.1 Maintain standardized pre-service training modules                             Ongoing1
      8.3 Develop and implement training evaluation plan                                 Ongoing1
   9. Continue statewide and service center quality improvement
      committees                                                                          Ongoing
  10. Implement customer awareness of rights and responsibilities                         Ongoing
  11. Implement data brokering service to obtain information on                      Pilot Implemented
      unreported income and assets                                                        11/15/99
  12. Utilize ad hoc reports to identify error-prone conditions requiring case
      actions                                                                            Ongoing
  13. Continue Project Recall, Project Uniform and other local error
      reduction activities listed in district quality improvement plans                  Ongoing
  3
      Worker Benefits




USDA/OIG-A/27004-3-At                                                                           Page 38
EXHIBIT C – STATISTICAL SAMPLING PLAN
                                                                                Page 1 of 2

Sample Design - The statistical sample design for this audit was a simple random
sampling scheme where a FSP claim was selected from a universe of food stamp
claims that were active in the FLORIDA system which were not being recouped. A
95 percent lower one-sided confidence level was used in this review. There was no
stratification of these 4,036 FS claims. All FS claims were selected with equal
probability without replacement.

Universe – In July 2000, the SA performed a match between the BRS and FLORIDA
system to identify FS claims (intentional program violations and inadvertent HH errors)
that were active in the FLORIDA system and were not being recouped. The match
identified a total of 4,036 FS claims (universe).

Sample Unit - A sample unit was defined as a FS claim from the universe of 4,036 FS
claims.

Sample Size - A sample size of 50 FS claims was selected.

Variables and Attributes - We reviewed each sampled claim to determine if the client
was participating in the FSP, or was only active in other benefit programs within the
FLORIDA system. For those participating in the FSP, we determined whether the
individual was repaying their claim. For claims not being repaid, we determined the
amount of the claim.

Point Estimate - The primary statistic used in the report is a point estimate – our best
statistical estimator. The point estimate is a projection of the total amount or number of
occurrences of the sample variable in the universe. The 95 percent lower one-sided
confidence level and the precision are given for the point estimate (see Schedule
below).

                              CLAIMS NOT BEING COLLECTED

                                                   Lower         Sampling
                                Point Estimate    Estimate       Precision
                 Number                  1,291            843            .347
                 Value               $678,532       $323,350            .523

Statistical Analysis – All statistical sample design, selection, and statistical estimation
were accomplished on a DELL Pentium Personal Computer using SAS and SUDAAN.
The statistical estimates used for projections along with their standard errors were




 USDA/OIG-A/27004-3-At                                                            Page 39
                                                                            Page 2 of 2

produced using the Windows version of SUDAAN, a software system that analyzes
sample survey data gathered from complex multistage sample designs. SUDAAN was
written by B.V. Shah of Research Triangle Institute, Research Triangle Park, North
Carolina.

The term sample precision (SP), as used in the report for estimating totals and number
of occurrences, is defined as:


                 SP       =      T * STDERR
                                     PTEST

where


                  T     -        t factor for a 95 percent one-sided confidence level
                  PTEST -        point estimate (average or number of occurrence)
                  STDERR -       standard error of the point estimate




USDA/OIG-A/27004-3-At                                                          Page 40
EXHIBIT D – FNS RESPONSE TO THE DRAFT REPORT
                                               Page 1 of 5




USDA/OIG-A/27004-3-At                            Page 41
                        Page 2 of 5




USDA/OIG-A/27004-3-At     Page 42
                        Page 3 of 5




USDA/OIG-A/27004-3-At     Page 43
                        Page 4 of 5




USDA/OIG-A/27004-3-At     Page 44
                        Page 5 of 5




USDA/OIG-A/27004-3-At     Page 45
EXHIBIT E – SA RESPONSE TO THE DRAFT REPORT

                                              Page 1 of 16




USDA/OIG-A/27004-3-At                            Page 46
                        Page 2 of 16




USDA/OIG-A/27004-3-At      Page 47
                        Page 3 of 16




USDA/OIG-A/27004-3-At      Page 48
                        Page 4 of 16




USDA/OIG-A/27004-3-At      Page 49
                        Page 5 of 16




USDA/OIG-A/27004-3-At      Page 50
                        Page 6 of 16




USDA/OIG-A/27004-3-At      Page 51
                        Page 7 of 16




USDA/OIG-A/27004-3-At      Page 52
                        Page 8 of 16




USDA/OIG-A/27004-3-At      Page 53
                        Page 9 of 16




USDA/OIG-A/27004-3-At      Page 54
                        Page 10 of 16




USDA/OIG-A/27004-3-At       Page 55
                        Page 11 of 16




USDA/OIG-A/27004-3-At       Page 56
                        Page 12 of 16




USDA/OIG-A/27004-3-At       Page 57
                        Page 13 of 16




USDA/OIG-A/27004-3-At       Page 58
                        Page 14 of 16




USDA/OIG-A/27004-3-At       Page 59
                        Page 15 of 16




USDA/OIG-A/27004-3-At       Page 60
                                                 ABBREVIATIONS


AG
 Auditor General .......................................................................................................................... 5

CAP
  Corrective Action Plans .............................................................................................................. 2
CSE
  Child Support Enforcement ........................................................................................................ 4

EW
 Eligibility Worker ....................................................................................................................... 7

FLORIDA
  Florida On-Line Receipient Integrated Data Access .................................................................. 4
FNS
  Food and Nutrition Service......................................................................................................... 1
FS
  Food Stamp ................................................................................................................................. 1
FSP
  Food Stamp Program .................................................................................................................. 1
FY
  Fiscal Year .................................................................................................................................. 1

HH
 Households.................................................................................................................................. 1

ME
 Management Evaluations............................................................................................................ 2

OIG
  Office of Inspector General ........................................................................................................ 5

PER
  Payment Error Rate..................................................................................................................... 2

QC
 Quality Control ........................................................................................................................... 2

RSDI
  Retirement, Survivors, and Disability Insurance ...................................................................... 17

SA




 USDA/OIG-A/27004-3-At                                                                                                            Page 61
  State Agencies............................................................................................................................. 1
SSI
  Supplemental Security Income ................................................................................................. 17

TCA
  Temporary Cash Assistance........................................................................................................ 4




 USDA/OIG-A/27004-3-At                                                                                                         Page 62
